                                                  I


                                                  II
    Depafiment of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




    MEDICARE HOME INFUSION THERAPY




              SEPTEWER   1993   OEI-02-92-00420
I
              EXECUTIVE                        SUMMARY

PURPOSE

The purpose of this inspection is to describe the Medicare home infusion industry
including reimbursement trends, coverage, company characteristics and physician
financial arrangements.

BACKGROUND

Home infusion therapy, one of the fastest growing segments of home health care, has
made it possible for increasingly sophisticated treatments to be given in the home.
These include enteral and parenteral nutrition and other therapies such as intravenous
antibiotics and chemotherapy.

According to a May 1992 Office of Technology Assessment (OTA) report, a few large
companies dominate the national market. The remaining companies include midsized
firms with strong regional markets and numerous small firms with local pharmacists,
home health agencies, hospitals and nursing homes increasingly entering the market.

Medicare patients appear to be a small part of the total home infusion market. While
Medicare coverage is clearly defined for enteral and parenteral nutrition, other home
infusion therapy semices are covered in a fragmented way. Although Medicare covers
drugs and biological when used with an infusion pump, carriers are given discretion in
implementing this coverage.

Over the last decade, both Congress and the Office of Inspector General (OIG) have
had concerns about physician financial arrangements with medical entities, including
home infusion companies. The Omnibus Budget Reconciliation Act of 1993 generally
prohibits payment by Medicare and Medicaid for services performed by clinical
laboratories, durable medical equipment providers, home health agencies, and
suppliers of parenteral and enteral nutrition when such services are ordered by a
physician who has a financial relationship with the supplier.

METHODOLOGY

We gathered and analyzed four sets of data relevant to the four parts of the study’s
purpose. (1) To estimate recent trends in Medicare reimbursements for home
infusion services, we reviewed Health Care Financing Administration (HCFA) data on
allowed charges for services and supplies representing home infusion charges in 1990
and 1991. (2) To describe Medicare coverage for home infusion services, we looked
at Medicare coverage guidelines, reviewed existing literature, spoke to various
respondents knowledgeable in the industry, and analyzed carrier payment data. (3)
To describe home infusion companies serving Medicare patients, we drew a random
sample of 200 beneficiaries who had pumps billed in 1991 and identified the     .
companies which provided these pumps. From these companies, we identified and


                                           i
interviewed 57 which provide infusion therapy in the home. (4) To describe the
nature and extent of physician financial arrangements, we interviewed 30
representatives of 30 randomly selected home infusion companies, three of which were
independent locations of the same company; a non-random sample of 28 physicians;
and 17 other respondents representing 11 professional organizations and 6 referring
agencies.

FINDINGS

Me&are Pqmerus for Honw InfMwn lkem~             are Ri.riizgRapidly

The number of Medicare beneficiaries who received infusion services    in the home
grew by 91 percent from 14,500 in 1990 to 27,700 in 1991. Estimated     total allowed       -
Medicare charges for infusion therapy in the home leapt 213 percent,    from $61 million
to $191 million. The average allowed charges annually per Medicare     beneficiary
                                                                                 .
jumped 63 percent, from $4243 to $6923.

Caniem Are Not Uniformly Covering Home Inn            Therapy

The OTA study, an analysis of carrier payments, and comments of study respondents
indicate great variability in coverage policy among Medicare carriers. While 17
carriers have policies to cover only the drugs and conditions specified by HCF~ other
carriers cover not only these, but a wide variety of others as well.

Physician Ownmhip and Other Financial Arrangements Are Common

Of the 30 infusion company respondents in our sample, five (17 percent) report having
physician owners. Ten (33 percent) of the sample infusion company respondents
report having some other sort of financial or business arrangement with one or more
physicians. Such arrangements are complex and it is difficult to determine what effect,
if any, they may have on Medicare. In regard to both the physician ownership and
other financial arrangements discussed in this report, we did not have sufficient data to
determine the effects that OBRA 1993 would have on Medicare payment for services
ordered by physicians with the financial arrangements we found.

Perceptions of company, physician and other respondents as to the extent of physician
arrangements differ from physicians’ and companies’ reported behavior, suggesting
that the full nature and extent of such arrangements are unclear. Most company
respondents, for example, believe physician arrangements to be very or somewhat
common, even though over half report having no such arrangements.

In contrast to the infusion industry in general, which is dominated by a few large firms,
smaller companies are providing home infusion to Medicare patients.




                                            ii
RECOMMENDATIONS

In light of our findings, we believe that HCFA should: 1) monitor spending to better
identify trends; 2) provide more specific coverage guidelines; and 3) collect ownership
and compensation information on form HCFA-192, use this information to monitor
referral and utilization patterns, and refer suspected cases of abuse to the Office of
Inspector General.

COMMENTS

Written comments received from HCFA and verbal comments received from OTA
concur with the recommendations of this report. Suggestions for changes in the
wording, clarifications of the text and any technical changes have for the most part
been incorporated into the final report. The actual comments received from HCFA
are in Appendix D.




                                            ...
                                           111
                      TABLE                    OF CONTENTS


EXEC~             S~Y

                                                                                                                              1

INTRODU~ON               . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .


FINDINGS.       .................. ....................................
                                                                                                                              8

 �   Medicare Home Infusion Payments Rising Rapidly . . . . . . . . . . . . . . . . . . . . . .
                                                                                                                 8

 �   Home Infusion Therapy Not Uniformly Covered.                 . . . . . . . . . . . . . . . . . . . . . . .

                                                                                                                10

 . Physician Ownership and Arrangements Common . . . . . . . . . . . . . . . .1. . . . .

                                                                                                           ..14

RECOIVIMENDA~ONS        . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .


APPENDI~     .....................................................
                                                                                                                 A-1

A MethodoloPJ to Estimate Medicare Reimbursement                         ...................
                                                                                                               . B-1

B: Sampling Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
                                                                                                             . . c-1

c. OTACoverage Data . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

                                                                                                             . . D-1

D: Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

                         INTRODUCTION


PURPOSE

The purpose of this inspection is to describe the Medicare home infusion industry
including reimbursement trends, coverage, company characteristics and physician
financial arrangements.

BACKGROUND

Home infusion therapy, one of the fastest growing segments of home health care, has
made it possible for increasingly sophisticated treatment to be given in the home,
including care previously available only in a hospital. It offers a variety of medical
treatments. They include enteral nutrition, which provides the patient with liquid
nourishment through a tube inserted into the stomach, either directly through the skin
or through a naso-gastric tube; parenteral nutrition which provides liquid nourishment
intravenously and antibiotics administered intravenously when a drug cannot be
administered orally or by injection. Chemotherapy, pain management, blood
transfusions, hydration therapy, and human growth hormones are other treatments.
For the purposes of this study, nutrition therapy refers to enteral and parenteral
services, while the remaining services are referred to as other therapies.

Components of home infusion include: equipment (such as pumps and poles); supplies
(such as dressing supplies and infusion sets); nutrients, drugs and pharmacy services;
nursing services; physician semices; laboratory services; and patient assessment and
training.

A significant development in home infusion has been the advent of the portable,
electronic pump used to administer the drug. It allows the flow of the drug to be
controlled, does not require the constant care of a nurse and helps ensure greater
patient safety.

The Home Injisibn l’krapy Induwy

The industry includes various players: home infusion companies, home health
agencies, visiting nurse semices, pharmacies and durable medical equipment (DME)
companies. The patient’s attending physician usually coordinates the care.

According to a May 1992 Office of Technology Assessment (OTA) report, entitled
Home Drug Infusion Therapv Under Medicare, a few large companies dominate the
national market. The remaining companies include midsized companies with strong
regional markets and numerous small firms. Entering the business are a growing
number of community pharmacists, as evidenced by the growth of pharmacy franchise
companies, as well as home health agencies, hospitals and nursing homes.
Medicare patients appear to be a small part of the total market. The OTA estimated

that roughly 20,000 to 35,000 elderly were receiving home drug infusion therapy in

1991, about 10 to 15 percent of all home drug infusion patients. The National

Alliance for Infusion Therapy (NAIT), which represents nineteen home infusion

companies, including many of the larger firms, estimates that between 11 to 15 percent

of its members’ patients are on Medicare. It also reports that most of its members’

home infusion patients receive antibiotic therapy and enteral nutrition.


The January 1991 issue of Homecare Magazine listed the top ten infusion companies

by sales volume. The number one company, Caremark, had sales of $625 million and

operated in 120 locations. The next nine companies ranged from $83 million in sales

to $17.2 million. These companies provide both nutrition and other therapies.


Besides providing the therapy itself (including the necessary equipment and drugs), the

large companies offer clinical pharmacy and nursing services. The more traditional

DME companies primarily furnish equipment and supplies. Companies may also have

patient advocates on staff who meet with patients to coordinate their care, to answer

questions and to address their concerns. One large firm has home patient

representatives who coordinate the services of the physician and company staff, such

as nurses and pharmacists; they also monitor patient compliance.


lUedkare Cbverage of Home Infizswn Serviies

Medicare coverage of infusion services provided by companies to patients in their
homes varies depending on the type of service. Claims for these services are
reimbursed by Medicare Part B carriers, the Health Care Financing Administration
(HCFA) contractors who are responsible for paying Part B claims.

Nutrition therapy coverage is clearly defined in the Medicare Carriers Manual
(MCM), Section 2130, which discusses home enteral and parenteral nutrition in the
context of prosthetic devices when ordered by a physician. It states, “Accessories
and/or supplies which are used directly with an enteral or parenteral device to achieve
the therapeutic benefit of the prosthesis or to assure the proper functioning of the
device are covered under the prosthetic device benefit...” Medicare allows nutrition
therapy to be reimbursed for patients at home or in a nursing facility, including a
skilled nursing facility, when the products are provided by an outside supplier who bills
the Medicare carrier directly.

As noted in Medicare Part B MCM Section 2100.5, Medicare covers home infusion
therapy primarily through its DME benefit. Infusion pumps are covered as equipment
capable of withstanding repeated use when “medically necessary to ameliorate illness
or injury or to improve functioning of a malformed body part.” Medical supplies and
accessories necessary for the proper functioning of the equipment are also covered.
This includes tubing, needles and alcohol swabs, and also drugs and biological that
must be put directly into the equipment to assure proper functioning.



                                            2

Although Medicare covers drugs and biological when used with an infusion pump, the

carrier is given discretion in implementing this coverage. The HCFA instructed

carriers in the Medicare Coverage Issues Manual, Section 60-14 to cover the cost of

external infusion pumps when used in the administration oh deferoxamine to treat

acute iron poisoning and iron overload; heparin to treat thromboembolic disease

and/or pulmonary embolism (in institutional settings only); chemotherapy for liver

cancer patients and colorectal cancer patients who cannot or will not undergo surgical

treatment; and morphine for intractable cancer pain. The manual goes on to say,

“Other uses of external infusion pumps are covered if the contractor’s medical staff

verifies the appropriateness of the therapy and the prescribed pump for the individual

patient.”


Other distinctions exist in Medicare’s handling of nutrition and other infusion therapy      -

services. Currently, only two carriers reimburse claims for all nutrition services, while

all carriers pay for other infusion therapy. As of October 1993 four regional carriers

will handle claims for all nutrition and other infusion therapy. This will allow them to

make more consistent coverage decisions. All providers who supply DME will have to

fill out a new Form HCFA-192, a “disclosure of ownership form,” in order to obtain a

new provider number needed to submit claims to the regional carriers.


Limits exist regarding the coverage of physician services relating to home infusion

therapy. Medicare Part B covers physician hospital visits related to discharge and

office visits, but does not ever cover physician administrative or telephone consultation

services; direct contact with the patient is required in order for the physician to be

reimbursed.


Lastly, Medicare also provides infusion services to homebound patients under its home

health benefits. Home health agencies are reimbursed by Medicare intermediaries for

nursing services, infusion equipment and supplies. Drugs and biological are, however,

specifically excluded under the home health benefit. (We note that home infusion

services provided by home health agencies are not within the scope of this study.)


M&care Reimburwnent       of Home Injksion Services

In planning the study it was not possible to obtain Medicare reimbursement data for

infusion patients treated in the home. Reasons for this difficulty include the large

number of home infusion services and supplies and the fact that they are covered in a

fragmented way. It thus became an objective of the study to obtain this

reimbursement data, including trend information.                         .


Concerns About Physician Financial Amangements

Over the last decade, both Congress and the Office of Inspector General (OIG) have
had increasing concerns about the proliferation of financial arrangements between
physicians and various medical entities such as laboratories and DME companies.
More recently, there has been an interest in the business of home infusion. For


                                             3
instance, Modern Healthcare, November 1991, reported that one large company
acknowledged paying $12 to $150 per week to hundreds of physicians under its Quality
of Service Agreements. “Their reasoning for paying the fees is a common refrain in
the homecare industry: The treatments for home care patients are getting more
complex, and physicians should be paid for their part in managing that treatment.”
Notwithstanding this rationale, questions about the appropriateness of certain
physician payments, and their budgetary impact, have prompted an increase in studies
and regulations.

In June 1988, Congress mandated that the OIG conduct a study on ownership and
compensation arrangements involving physicians and the health care entities. The
study looked at independent clinical laboratories (ICL), independent physiological
laboratories (IPL), and DME companies, but did not specifically look at home infusion
companies. In a report published in May 1989, the OIG found that many physicians
are owners of or have other financial relationships with health care businesses to
which they refer patients. The study also found that those ICLS with physician”
arrangements had an increased utilization rate (45 percent more than other Medicare
recipients) attributed to the patients of the physicians involved.

A January 1991 report by the State of Florida Health Care Cost Containment Board,
entitled “Joint Ventures Among Health Care Providers in Florida”, found that some
types of physician-owned facilities had clearly increased costs, charges, and/or
utilization, or were associated with greater access or quality problems, but the results
varied depending on the type of facility. Infusion companies were not included in this
study.

In its May 1992 report, the OTA states, “There is some evidence that physician
ownership of health facilities is related to higher use of those facilities’ services.” They
also report, “There is little consensus among physician associations regarding the
acceptability of different ownership and financial arrangements.”

The OIG has approached physician ownership and compensation arrangements as
potential violations of the Medicare and Medicaid anti-kickback statute. This criminal
provision is useful to the Federal health care programs as a means of limiting the
influence of money on physicians’ decisions regarding when and where to refer
patients. In 1987, the Medicare and Medicaid Patient and Program Protection Act
gave the OIG additional remedies for violations of the anti-kickback statute. IrI
addition to criminal penalties, a violator may be subject to exclusion from participation
in the Federal health care programs. The 1987 legislation also directed the OIG to
develop the so-called “safe harbor” regulations, to clarify the types of arrangements or
conduct that would not be subject to prosecution under the anti-kickback laws.

The Medicare Catastrophic Coverage Act of 1988 (later repealed) which would have
explicitly covered home infusion would have prohibited payment for home drug
infusion therapy services provided by a company in which the physician ordering the
service had a financial interest. Based on the 1988 OIG study, Congress prohibited


                                              4
Medicare payment for clinical laboratory services when ordered by a physician with a

financial stake in the supplier. Anumber of States have banned or restricted

physician “self-referrals;’ while other States permit self-referral as long as the physician

and, in some cases, the referred entity disclose their financial relationship to patients.


The Omnibus Reconciliation Act (OBRA) of 1993 includes a provision which expands

the current ban on payment for clinical laboratory services when ordered by a

physician who has a financial relationship with the supplier. The expansion applies the

prohibition on payment to a number of other services, including DME and parenteral

and enteral nutrients, equipment and supplies, and prohibits payment by both

Medicare and Medicaid. This expansion on the current ban for clinical laboratory

services applies to referrals made after December 31, 1994.


Joint Conuniwihn on Accreditation of Healthcare Organizations (JCAHO)

Home infusion companies may voluntarily apply for accreditation from JC&O         as

home care organizations. Standard GM.11.1 of JCAHO’S Accreditation Manual for

Home Care, 1993 edition, discusses physician involvement in the company. It states,

“Professional experts, including physicians, are involved as appropriate in the

development of patient/client care/service policies and procedures and the review and

revision processes.” The disclosure of ownership is on the application filled out by

companies when applying for accreditation. If a physician or hospital owner is

identified as an owner, they are required to disclose their ownership to any patients

they refer to their own company for services.


METHODOLOGY


overview


We gathered and analyzed four sets of data relevant to the four parts of the study’s

purpose. (1) To estimate recent trends in Medicare reimbursements for home

infusion services, we reviewed HCFA data on allowed charges for sewices and

supplies representing home infusion charges in 1990 and 1991. (2) To describe

Medicare coverage for home infusion services, we looked at Medicare coverage

guidelines, reviewed existing literature, spoke to various respondents knowledgeable in

the industry, and analyzed carrier payment data. (3) To describe home infusion

companies serving Medicare patients, we drew a random sample of 200 beneficiaries

who had pumps billed in 1991 and identified the companies which provided these

pumps. From these companies, we identified and interviewed 57 which provide

infusion therapy in the home. (4) To describe the nature and extent of physician

financial arrangements, we interviewed representatives of 30 randomly selected home

infusion companies, three of which are independent locations of the same company, a

non-random sample of 28 physicians, and 17 other respondents representing 11

professional organizations and 6 referring agencies.





                                              5

HCFA Data on Allowed Charges

To estimate Medicare reimbursement for infusion services and to identi~ trends, we
analyzed the data in a one percent random sample of the HCFA Common Working
File (CWF), HCFA’S system for collecting carrier data nationally. These data
consisted of total allowed Part B charges in 1990 and 1991 for both total infusion
services and home infusion services. The allowed charges represent what Medicare
considers reasonable for these services. The program pays 80 percent of allowed
charges with beneficiary responsibility for coinsurance and deductibles. To estimate
the payments for home infusion services, we developed a list of services and supplies
representing a total of 121 billing codes which we believe, in the aggregate, capture
these services. See Appendix A.

Medicare Coverage

In order to determine Medicare coverage of home infusion services we reviewed the
Medicare Carrier’s Manual (MCM) and various surveys and reports. Since we became
aware of varying coverage of drugs and biological we gathered perceptions of people
from agencies who referred patients for home infusion, infusion company
representatives, members of professional organizations and physicians about carrier
implementation of Medicare coverage guidelines. We also analyzed patterns of
payments made by carriers in 1991 for infusion drugs including antibiotics,
deferoxamine, some immunosuppressives and a chemotherapeutic agent, FUDR, used
to treat liver cancer.

Infusion Company Charactetitics

From HCFA’S 1991 CWF we selected a random sample of 200 beneficiaries who had
pumps billed (the major way that Medicare pays for home infusion therapy). See
Appendix B. Twenty-one of these beneficiaries had pumps billed by more than one
company. This should have given us the names of 221 infusion companies; we were
able to identify 213 of them. We were unable to identify eight companies because the
carrier did not supply us with this information. Seventy-eight were repeats of the
same companies, thus giving us 135 different companies. We reached 128 of these
companies; the remaining seven were defunct. The 128 includes some companies with
several locations and represents a total of 117 firms.

When we started calling infusion companies to ask them about the home infusion
therapy they provide, we soon realized that a substantial number of the companies
only supplied nutrition therapy in nursing homes. Some companies were actually
nursing homes. The companies which provide services only to nursing homes had
minimal contact with the patients’ physicians. In fact, the nursing homes, not the
physician, referred patients to companies. We then screened all of the remaining
companies in the sample and eliminated those which provided only nutrition therapy
to nursing homes. Seventy-one companies were eliminated, leaving a total of 57 that
provided infusion therapy in the home.


                                           6
Physician Financial Awaugernenti

From the 57 companies we randomly selected a subsample of 30. Three of the 30 are
locations of one larger company, but each location acts independently with its own
manager, policies, and operations. We called representatives of the 30 and asked
about the therapies they provide, any financial arrangements they may have with
physicians and their views of the industry. We also requested samples of any contracts
they may use with physicians. Five of the ten companies who told us about financial
arrangements sent us examples of these contracts.

Additionally, we interviewed a non-random subsample of 28 of the 164 physicians who
referred patients to the sample infusion companies about their relationships and
involvement with home infusion companies and their general perceptions of the
industry. We chose to conduct a convenience subsample when it became apparent
that most physicians had limited experience with home infusion companies..

We also interviewed, by phone or in person, 11 principals of professional and trade
organizations such as the National Alliance for Infusion Therapy (NAIT), the
Outpatient Intravenous Infusion Therapy Association (OPIVITA), the American
Academy of Home Care Physicians and the National Association for Home Care.
Lastly, we interviewed a staff person from each of 6 referring agencies which included
a home health agency, several hospitals and a nursing home. We asked about their
experiences and their insights into physician financial arrangements with home infusion
companies.

This inspection was conducted in accordance with the Quality Standards for
Inspections issued by the President’s Council on Integrity and Efficiency.




                                           7

                                 FINDINGS


MEDICARE     PAYMENTS FOR HOME INFUSION THERAPY                     ARE RISING
RAPIDLY

There has been a rapid increase in Medicare home infusion therapy reimbursement.
The number of Medicare beneficiaries who receive infusion semices in the home horn
infusion companies grew by 91 percent from 1990 to 1991 (see Table 1 below). From
1990 to 1991, estimated total allowed Medicare charges for infusion therapy in the
home leapt 213 percent, from $61 million to $191 million.

The average allowed charges per Medicare beneficiary receiving     infusion services in
the home jumped 63 percent, from $4243 to $6923. One reason         the average cost is
growing so rapidly according to OTA is that “both the categories    of drugs that-carriers
are willing to cover and the number of claims for drugs in those   categories appear to
be rising.”

 TABLE 1: GROWTH        OF INFUSION SERVICES UNDER MEDICARE                     PART B
                                       CY 1990            CY 1991           INCREASE
    INFUSION SERVICES IN
         THE HOME
      Estimated Number of                14,500            27,700               91%
           beneficiaries
     Estimated Total $ allowed        $61 million       $191 million            213%
   Estimated Average $ allowed           $4243             $6923                63%

CARRIERS     ARE NOT UNIFORMLY           COVERING     HOME INFUSION THERAPY


Medicare carriers do not appear to be covering home infusion therapy in a uniform

manner. We initially identified this problem during our review of the earlier

mentioned OTA report and developed it further in discussions with OTA staff and

industry experts. We also reviewed some additional OTA coverage data not published

in the final report. Finally, comments volunteered by our study’s respondents and our

own data analysis further support the existence of this variable Medicare coverage.


The OTA study found great variability in coverage policy among Medicare carriers

(see Append~ C). The OTA surveyed 43 carriers and found all had policies to cover

the three drugs specified by HCFA in its Coverage Issues Manual: chemotherapy

drugs for certain cancers, deferoxamine for acute iron poisoning or overload, and

morphine for intractable cancer pain.





                                           8

While 17 carriers had policies to cover only the drugs and conditions specified by

HCFA, the other carriers had policies to cover not only those drugs, but a wide variety

of other drugs as well. The OTA February 1991 data indicate, however, that many

carriers did not have policies to cover drugs and conditions other than those specified

by HCFA. Some examples of this disparity of coverage among the 43 carriers

surveyed by OTA include:


       Twenty-five carriers cover cancer chemotherapy    drugs for conditions other than
       those specified by HCFA.

       Thirteen carriers cover morphine for conditions other than those specified by
       HCFA.

       Fourteen carriers cover analgesics other than morphine if the patient is allergic
       to morphine; 10 cover other analgesics with few categorical restrictions.
                                                                                 .
       Fifteen carriers cover antibiotics for various chronic infections; two cover
       antibiotics only as an adjunct to cancer therapy.

       Two carriers cover hydration for patients already receiving other covered
       infusion therapy.

A few carriers even admitted covering certain drugs that are not administered through

infusion pumps. The OTA report also states that, “Some carriers, for example,

interpret the DME benefit to include even coverage for antibiotics administered by

gravity drip. Other carriers almost never pay for any drug through this benefit.”


The OTA found where carriers covered unspecified drugs and conditions, that

coverage was sometimes limited to patients already receiving other infusion therapies.

The OTA noted the present system promotes coverage for the sickest patients, while

those healthier patients needing only simple antibiotic therapy with a gravity drip must

remain hospitalized. Lastly, the OTA stated, “An interesting characteristic of current

coverage of home-infused drugs is that because changes are made incrementally at the

local level, and because two of the three drugs sanctioned by HCFA are for cancer

therapy, patients with severe cancer have the greatest coverage.”


In its response to the OTA report, HCFA did not take issue with the observation on

varying coverage of infusion services. Also, we were able to verifi this variation in

coverage through an analysis of payments made by all carriers in 1991 for infusion

drugs including antibiotics, immunosuppressives and a chemotherapeutic agent. We

noted wide differences in the total amounts paid by carriers for some infusion drugs.

Frequently these amounts paid were disproportionate to what could have been

expected considering the size of populations served by the carriers. One example is

six carriers made payments for IV immunosuppressive drugs in 1991 while 43 made no

payments at all. Another noticeable variation in payment occurs in two States with

multiple carriers. One State with three carriers had two carriers paying for IV”



                                             9
immune globulin, vancomycin, and FUDR while the third did not pay for any of them.


Comments from our sample infusion companies, and from professional organizations

and referring agencies combined also bear out OTA’S findings. Forty percent of each

group of respondents cite uneven and inadequate Medicare coverage of home infusion

as a major issue in the industry. Some believe drugs and biological are never

covered, while others do not know what is covered and under what circumstances.

One respondent reflects the view of many when she says, “Carriers only pay for certain

drugs with pumps, but they don’t pay for all, We never know.” Another says,

“Medicare does not pay for hydration and antibiotics. Patients must remain in the

hospital, so that triples the cost of therapy.” Still another respondent who has

experience with several carriers remarks that one carrier pays for antibiotics on a case-

by-case basis while another pays for no antibiotics at all. Therefore, the sense of these    -

respondents and others is that patients with similar conditions receive different

benefits in different parts of the country. Some respondents mention that they would

like clearer direction from HCFA concerning coverage of drugs for home infusion.


PHYSICIAN OWNERSHIP           AND OTHER FINANCIAL ARRANGEMENT’S                      ARE

COMMON


Physician OWneIShip

Of the 30 infusion companies in our sample, five (17 percent) report having physician
owners. The prior OIG inspection, “Financial Arrangements Between Physicians and
Health Care Businesses” found physician ownership in 25 percent of independent
clinical laboratories (ICL), 27 percent in independent physiological laboratories (IPL)
and 8 percent in DME companies. Although the 17 percent ownership of infusion
companies is somewhat lower than the percent for ICLS and IPLs found in the prior
OIG study, it is a great deal higher than that for DME companies. This is significant
since home infusion is covered under the DME benefit; therefore home infusion
companies are a type of DME company.

Among the five company respondents who report having physician owners, four
provide all types of home infusion therapies, with the fifth offering only nutrition. All
five companies serve patients in a variety of settings and range in size from one to
seven locations.

These five ownership arrangements    differ and can be characterized   as follows:

o	     One physician owns ten percent of one company’s stock, serves as its medical
       director and is very active in its day-to-day management.

o	     A physician group clinic with more than 100 physicians owns 15 percent of the
       second company; none of the physicians, however, allegedly have any major
       company responsibilities.



                                            10

o	    Six physicians own 90 percent of the third company and are responsible for its
      day-to-day management and all financial matters. They also serve on all
      company committees.

o	    Five oncologists at a cancer center own 100 percent of the fourth company.
      They claim to provide the supplies and pharmaceuticals to just their own
      patients.

o	    The fifth company has two physicians who each own one-third of the company’s
      stock and act as its medical directors. The company respondent claims that
      these physician owners make no referrals to their own company.

In the subsample of 28 physicians, two claim to have less than one percent ownership
interest in an infusion company. One of these firms is a publicly traded company.
The remaining 26 do not report any ownership.
                                                                              .
Many infusion company respondents report a recent “sentinel effect,” which has
reportedly caused physician financial arrangements to plateau or to virtually disappear.
This change reportedly resulted from awareness of investigative activities in the home
infusion area.

Nature of Other Firumcial Arrangements

Ten (33 percent) of the sample infusion companies report having some other sort of
financial ‘or business arrange-rnent with one or more physicians. This is more than
double the 17 percent compensation arrangement figure found for ICLS, IPLs, and
DMEs in the earlier OIG study.

Seven of the ten companies employ physicians as medical directors or as advisory
board members in order to acquire JCAHO approval. Respondents say that these
physicians typically review the company’s policies and procedures, do quality assurance
and utilization review, review protocols, write articles and generally advise the
company. They are usually paid an annual salary or a flat amount, such as $200 per
meeting plus $400 per year.

The remaining three company respondents report having other kinds of financial
arrangements. Two have financial arrangements with physicians to provide quality
assurance and compliance and the ongoing clinical management of patients. Of these
two, one pays the physicians on a case by case basis. The third company has
consulting agreements with physicians to review the program’s efficiency. The
physicians are paid a flat fee on a monthly basis.

A review of the contracts submitted by some of these companies appears to support
their statements about the types of arrangements they have. The contracts detail the
physicians’ responsibilities and payments. Some contracts address Medicare
involvement. One contract contains the clause, “Due to Medicare/Medicaid


                                            11
restrictions, (physician) fees will not be paid under this Agreement on patients eligible
for coverage by Medicare or Medicaid, regardless of whether the particular therapy
being provided is a Medicare or Medicaid covered service.” Another contract talks
about safe harbors, “The parties acknowledge that this Agreement and the business
relationship created satisfies the requirements of ‘safe harbor’ provisions for personal
services and management contracts set forth in 42 CFR Section 1001.952(d).”

All 10 respondents say they do not bill the Medicare carrier for physician services
although they do feel that physicians should be reimbursed for their ongoing
management of the patient. Some respondents report that private insurers will, in
fact, reimburse physicians for these monitoring services.

While none of the physician respondents report any financial arrangements with
infusion companies, six mention financial incentives they had been offered. These
include a supervision fee, $100 a patient for referrals or some other fee for-referrals, a
consulting fee, billing services, and an administration fee for each dialysis pati~nt that
gets intradialytic parenteral nutrition. All physicians claimed to have turned down
these offers.

The majority of physician respondents report having no input concerning the infusion
company used by their patients. Most say this decision is made by the hospital,
nursing home, or home health agency with which the patient is associated.   Those
physicians who do make or influence the decision report hearing about infusion
companies from sales people or choosing a company from prior positive experience.

In regard to both the physician ownership and other financial arrangements discussed
in this report, we did not have sufficient data to determine the effects that OBRA
1993 would have on Medicare payment for services ordered by physicians with the
financial arrangements we found.

Con.t&g    Perceptions of Financial Awangemenfi

Perceptions of company, physician and other respondents as to the extent of physician
arrangements differ from physicians’ and companies’ reported behavior, suggesting
that the full nature and extent of such arrangements are unclear.

Although 17 percent of infusion company respondents report having physician owners,
a majority (53 percent) nevertheless believe physician ownership is either ve~ or
somewhat common. In contrast, most physician respondents (64 percent) say either
that physician ownership is not at all common or that they do not know how common
it is.

The perceptions of infusion company respondents and physician respondents also
differ regarding other financial arrangements. Two-thirds of the company respondents
believe such arrangements are very or somewhat common, though only one-th~d
report having them. However, only four of the 28 physician respondents feel other


                                            12
financial arrangements   are common, 10 feel they are not common, and 14 do not
know.

Most of the 17 representatives of professional organizations and referring agencies
believe that physician arrangements are very or somewhat common in the industry.
About three-fourths say they know or have heard of specific cases of physician
arrangements. Seven of the 17 report knowing of cases where physicians received fees
for referrals.

Two-thirds of all respondent types agree that if physician ownership or other financial
arrangements does occur, it could lead to kickbacks and possibly, over-referral.

Most respondent types, nevertheless, cite advantages to both physician ownership and
other financial arrangements. The major advantage mentioned is profit for the
physician, which is seen as having little if any benefit for the patient. Other.
advantages cited include enhanced quality of care, availability of physician inptit and
expertise, and better integration of care. However, disadvantages are offered more
frequently than advantages. These disadvantages include a conflict of interest for the
physician which might affect his or her judgement, reduced quality of care, high costs,
and the patient’s lack of free choice.

Company Character&tics

In attempting to learn about physician financial arrangements with the 57 sample
home infusion companies we found that most of the companies in our sample were
small in size. This is in contrast to the industry at large which is dominated by a few
very large companies. All but one of the top ten infusion companies have at least 70
locations or more nationwide.

Only one of these very large firms shows up in a list of the top ten of our 57 sample
companies in terms of their market shares of Medicare patients served in the home.
Its nine percent share of Medicare patients is not even the largest. The firm with the
highest (13) percent of patients actually cares for a total of only 500 patients at a time,
approximately 375 of which are on Medicare, and has but one location. Its patient
load is much smaller than that of industry leaders which have several thousand
patients each. Also, nine of the top ten Medicare companies in our sample have ten
or fewer locations. And none of these nine sample companies shows up on an
industry list of the 75 top infusion companies, based on sales and other criteria. Of
the ten leading sample companies serving Medicare patients in the home, the top four
provide nutrition and other therapies while the next six provide only nutrition.




                                            13

                   RECOMMENDATIONS


In light of our findings, we believe that HCFA should:

      1) Monitor spending to better track trends. One way this can be accomplished
      is to identify a unique series of codes for home infusion therapy similar to the
      approach used in this study.

      2) Provide more specific coverage guidelines and

      3) Collect ownership and compensation information on form HCFA - 192, use
      this information to monitor referral and utilization patterns, and refer suspected
      cases of abuse to the OIG.


COMMENTS

Written comments received from HCFA and verbal comments received from OTA
concur with the recommendations of this report. The OTA is concprned that the costs
of infusion therapy are underreported in this report because we did not include
Medicare Part A services related to pump use. We agree that including Part A
services would increase total costs. However, Part A data was not within the focus of
this study. Suggestions for changes in the wording, clarifications of the text and any
technical changes have for the most part been incorporated into the final report, The
actual comments received from HCFA are in Appendix D.




                                           14

                             APPENDIX                    A


      METHODOLOGY            TO ESTIMATE MEDICARE                REIMBURSEMENT

To obtain Medicare reimbursement amounts the same method was used to gather
1990 data and 1991 data. Beneficiaries were identified as infusion patients from the
OIG Part B CWF one percent sample when an infusion pump (HCPCS B9000-B9006,
E0781, E0791) was found in their Part B sefices. The place of service code for the
pump identified beneficiaries receiving infusion services at home. Infusion services
were defined for these beneficiaries as:

      BOOOOthrough B8999          Enteral and parenteral therapy


      B9000 through B9006,

      E0791                       Enteral and parenteral        pumps


       E0781                      Ambulatory infusion pump


       E0776                      IV pole


       A4214                      Sterile saline or water


       J7050 through J7130        Various infused medications


       J7501                      Azathioprine,    parenteral


       J7503                      Cyclosporine, parenteral


       J7504                      Lymphocyte immune globulin


       J7505                      Monoclinal      antibodies


       J9000 through J9999        Chemotherapy


       J7190 through J7197        Anti-hemophiliac      factor


       J2270                      Morphine


       J0990                      Demerol


       J2175                      Meperidine”


*
       Listed in HCFA’S September 1993 DMERC Supplier Manual as one of a list of
       drugs used with infusion pumps



                                          A -1

                              APPENDIX                      B


                            SAMPLING METHODOI.XIGY

First, all beneficiaries who had received an infusion pump (HCPCS codes B9000-
B9006 or E0781, E0791) were extracted from the 1% 1991 Part B Common Working
File (CWF). There were 1,178 of these beneficiaries with 5,210 pumps for a total
allowed charge of $594,392.00. Second, the beneficiaries were matched by HICN back
to the CWF to get all of their services in 1991 (131,343 line items). These
beneficiaries were matched against HCFA’S Enrollment Data Base (EDB) to get their
State of residence. These steps resulted in information about each of the 1,178
beneficiaries. To obtain a workable sample, each State was given a weight in
proportion to the number of pump beneficiaries living in that State. Random numbers
were used to pick the 8 states (KS, NY, CA IL, CT, TX, TN, FL). Next, a-simple,
random sample was performed to pick a maximum of 30 beneficiaries per State
resulting in a total of 200 beneficiaries in the sample (CT and KS combined only have
20).

Table I below shows the number of pump beneficiaries in the sample States and their
probability of selection.

                                           TABLE I

   NUMBER OF BENEFICIARIES WITH
 PUMPS IN SAMPLE STATES AND
                ODDS OF STATES
 BEING CHOSEN

                     No. of    Percent of            No. of Probability of
                     Benes     Total                 Chances Selection
 CALIFORNIA
         125           10.61 percent    107          10.22 percent
 TEXAS
              97            8.23             83           7,93
 NEW YORK
           66            5.60             57           5.44
 FLORIDA
            80            6.79             69           6.59
 ILLINOIS
           49            4.16             43           4.11
 TENNESSEE
          43
                               I
                                   3.65             38           3.63
                                                                                 I
 CONNECTICUT

 KANSAS

                   I 12
                   I
                     8
                               I
                                   1.02
                                    .68
                                                   I 11
                                                   )
                                                     8
                                                             I
                                                                 1.05
                                                                  .76
                                                                                 I
 SUBTOTAL
           480           40.74            416
                               I
[ U.S. TOTAL
      \ 1178                          I 1047    I                   II


                                            B-1

                              OTA COVERAGE DATA ‘
                                Collected February, 1991

               HCFA-Sanctioned Coverage for Drugs Undkr the DME Be@

                             Policy in Medicare Carriers Manual if drug is delivered
Drug                         through an external infusion ~ump

Morphine:                    Covered for intractable cancer pain

Cancer chemotherapy:	        Covered for liver cancer and some colorectal cancer
                             patients

Deferoxamine:                 Covered for acute iron poisoningor    iron overload

Heparin:	                     Covered in institutional settings to treat thromboembolic
                              disease and pulmonary embolism


            Variation ti Cawier Coverage Policti for Dregs Uhder the DME Be@
                           Results of an OTA Telephone Survey **

                                                                   NUMBER (PERCENT)
DRUG                                                               OF 43 CARRIERS

MORPHINE
    Cover only for HCFA-specified conditions                       29 (67%)
    Cover for above and some other conditions                      13 (30%)
    No claims yet                                                   1 ( 2%)

CANCER CHEMOTHERAPY
     Cover only for HCFA-specified conditions                      17 (40%)
     Cover for other cancers/drugs as well                         25 (58%)
     No claims yet                                                  1 ( 2%)

DEFEROXAMINE
     Cover only for HCFA-specified conditions                      33 (77%)
     Cover (rarely) for other indications                           3 ( 7%)
     No claims yet                                                  6 (14%)
     No response                                                    1 ( 2%)

 HEPARIN
      Responses not reliable - confused home/institutional      settings


                                            c-1
                                                           NUMBER (PERCENT)

DRUG                                                       OF 43 CARRERS

OTHER ANALGESICS BESIDES MORPHINE
     Cover if patient allergic to morphine
      or tried unsuccessfully                              14 (33%)
     Cover with few categorical restrictions               10 (23%)
     No claims/do not cover                                19 (44%)

ANTIBIOTICS
     Cover for various chronic infections                  15 (35%)
     Cover only as an adjunct to cancer therapy             2 ( 5%)
     No claims yet (but probably would cover)               1 ( 2%)
     Do not cover                                          25 (58%)

ADJUNCT CANCER DRUGS (BESIDES CYTOTOXIC DRUGS)                         “
     Cover when prescribed for patients already
      receiving infused cytotoxic drugs          4 ( 9%)
     Do not cover                               39 (91%)

DOBUTAMINE
     Cover for heart transplant candidates                   2 ( 5%)
    No claims yet (but would probably cover)                 1 ( 2%)
     Do not cover                                           40 (93%)

HYDRATION
    Cover for patients already receiving other
     covered infusion therapy                                2 ( 5%)
    Do not cover                                            41 (95%)

AEROSOLIZED PENTAMIDINE            ***
     Cover under DME benefit                                 2 ( 5%)
     Do not cover                                           41 (95%)

*
       Not published in final report
**     Telephone survey information was not verified in any way
***    Not infused




                                         c-2
      APPENDIX         D

HCFA COMMENTS ON THE DRAFT REPORT




               D-1
                                                                                                 ~ealth   Csre
~“                 ut-1’ART,ME!NT     OF HE.KLTH   & Hu~~AN    SERVICES                          Fkancinu   Adminiatrotion
a
a
�    Jgg

     “*”’ nsEP
 -“%-2
                                      3RU                                                        Memorandum

         From	       Bruce C, VladecSc
                     Administrator
         Subject
                     Office of Inspector General      (OIG) Draft Report:         %fedicare   Home Infusion
                     Therapy” (O EI-02-92-00420)
         To
                     Bryan B. Mitchell                                        .
                     Pr;ncipal Deputy Inspector      General


                     We re~-icwed the above-referenced         draft report which describes     the Medjcare      home
                     infusion industxy.

                     We coucur w-ith all of the recommendations   contained in the reportt Based on our
                     review of trade journals and discussions with i.ui%ion indus~ rcpreseutatives,     we
                     aIso agree with OIG*S findings regarding the rapid increase in e~cnditures     for
                     home infusion therapy. W’e expect continued growth in the future and suppom the
                     monitoring of e.spenditures on home infusion therapy.

                     Our de~~iled comments on the        report findings and recommendations    are attached
                     for your consideration. Thank       you for the opportunity to review and comment on
                     this draft repom Ple~e advise        us if you agree on our position on the report
                     findings and recommendations        at your earIiest c.ouvenience.

                      Atr.achrnents
         Comments of the Health Care Financinq Administration (HCF.~)

              on Office of Ins txctor General (OIG\ Draft Report:

                       ,Medicare Home Infusion Therapy

                                 (OE1-02-92-00420)


Recommendation     I

HCFA should monitor spending to better identify trends, perhaps       by identitiing   a
unique series of cok for home infusion therapy.

HCFA Response                                        .

W’e concur. Program expenditures for all durable medical equipment, prcsthetiw,
orthotics, and supplies (DMEPOS), including home infusion therapy equipment,            ­
shctid be monitored closely, especially given the precipitous growth in these
expenditures.    HCF.4 has put procedures in place to track trends in infusion
the:opy. As OIG is aware, HCFA’S contract with four durable medical equipment
regionai carriers (D.MERC) wi!l become operational on October 1. One DMERC,
in addition to c\airns processing functions, will seine as a statistical analysis DMERC
(SADMERC).        The SADMERC will track spending and utilization trends. In order
 to uniquely identify claims for infusion thtrapy in the home, HCFA iS considering
 establishing a two-digit modifier to attach to existing codes. Establishing modifiers
 would prevent the need to create unique codes, which would essentially double the
 current number of infusion-related    cedes. Utilizing the analysis of coc!es, HCFA
 will be able to track and correct aberrant trends.

 Recommendalicn        2

 15CF.A should provide more specific coverage guide~ines.

 HCFA Resuonse
                                                                                           ->
 We concur. W’c are aware that the variability in caverage of home infusion therapy
 is due to a broad ccverage guideiine which allows contractors to make independent
 decisions regarding external infusion pumps. Therefore, we agree that rncre specific
 guidance is needed.

 In an~icipation of the tre.mendcus growth in the home infusion therapy indusv,
 HCFA requested an assessme:lt in September 19S6 of the safety and effectiveness
 of various dru g de~ive.r-y Systems, especially infusion pumps, from the Office of             .
 Health TeChROlU&WAssessment [OHTA), Agency for Health Care Pcliey and
 Reseorch, Public Health Seiwice. \Ve recei~ d 01-!TA’s initial drafl rcpon on this
 issue in late Aucust and are curre:~t!y reviewing it. We wouid like to COCsi~cr
  O?-iTA’s advice-and recommendations        befidrc revising national coverage of infusion
  pumps.
,


    Page 2

    In the interim, the DME regiordization      initiative, which involves developing
    medid     review policies for the top 100 items of DME, should bring about a
    measure of consistency in current coverage, Each DMERC will implement region-
    wide medical review policy and guidelines. Additionally, the DMERC Medical
    Directors will continue to meet periodically to review and discuss their regiomd
    policies. Efforts will be made to make medical review policies as uniform as
    ~ossible across regions (though in some cases, uniformity may not be poss]ible
    because of variations in medical practice from one region to another).
                                                          .
    Recommendation      3

    HCFA should cokct ownership and compensation information cm form
    HCFA-192, use this infortmtion to monitor referral and utilization patterns,       and
    refer suspected cases of abuse to OIG.

    HCFA Response

    We agree. Under the HCFA DhlERC initiative, the DNIERC servicing the
    National supplier clearinghouse   (NSC) will collect information  on ownership and
    management throu:h the use of (he supp!ier registration form (HCFA-1%1). The
    ownership data, along with utiiiz~ tiun ck;a ccllw~td  by the S,%DMERC, will be
    analyzed by the D.MERCS to detect aberrant supplier patterns, ~nc information Cfi
     aberrant supplier trends will be prcvkkd     to NSC for   Mgjng suppliers Mr further
     review. If a supplier is sus~ected cf abuse, D\t ERCs will take appropriate        acticr$
     which t-nay
               . include referral to OIC~.

     The Omnibus Btidget Rtcol;ciliction     .+ct of 1993 inc!udes a provision which expands
     the current ban on Fhysicizin ~efer~a!s ~eyo~d clil:ic~l iabs to othter sewices~
     including DNfS and parenteral ar.d en[era! nutr~ents. equipment, and suppIies. ~,e
                                                                                             ,.
     provision for the expansion in the ban on referrals will be effective after
     December 31, 1994. Since the D\[E and paxr.:e. !-”11   h and eriteral benefits ~it? the
     mechanisms by whic!~ home infusicn t!-xmpy is Fravidec under current lw, OIG’S
     concerns wit!l res~ec; to c~vnership and cornpc:lsa:~oa arraagem.ents lm~e been
      ac!dresscd with enactm. dn: of this prmision.

     Technical   Comments:

      On page 2, line 4 of the scccnci iwr:gr~?l: u[;der “\ledic3:c covcra~c Cf !+om.e
      Infusion Ser{ices,” we Stl:gJc S: c!c!d!ing :I:c wC:L1>“i]: arder,” Ixcause ;hey do cct
      aFFear in the imtructicll qua(ed (:0::1 Scctidfi ~ij LI0[ the \tedic2re C3rric:s
      Ntanual.
      1
,,
           ,,


 .
     .,.
                Page 3

                If the data are available, it would be helpful to have the numbers in Table 1 on
                page 8, Growth of Infusion Services Under Medicare Part B, broken into categories
                by parenteral, enteral, and other.

                It is unckar in a number of instances throughout the report whether OIG is using
                fiscal v caIendar year data. For example, it would be helpful to indicate fiscal or
                calendar year in the tex~ and chart under the findings lissed on page 8.

                After revieving the first draft of the repor~ it was recommended    that some of the
                HCPCS cod:s chosen to estimate Medicare reirn&.wsement amounts (Appendix A)
                not be incIuded. Specifically, OIG included codes J2175 (Meperidine) and J2180
                (Mepwidine and promethazine       HCL). While it is possibIe to give these analgesics
                intravenously, it k more likely that they are being given intramuscularly in the home.
                The revised report still has these codes inciuc!ed. This may lead to an overestimate
                of home intravenous therapy.

                Appendix B gives the percent of total beneficiaries in eight States. TiIe p~rcent for
                the subtotal shouId be 40.75, not 40.13. AppendL~ B is still not clear. It would be
                helpful to cktrify how the Number of Chances calumn in table 1 was generated.

                Appendix C (pa~e C - ~) ]ists Aerosali~ed penta~-dine     (J2545) as ~ d~g tht was
                included in an OHTA tekphone sut=my. Pentamidine, a drug given to MDS
                patients, can be given intravenously, but the aerosolized route is not intravenous.
Depafiment of Health and Human Sefices
        OFFICE OF
   INSPECTOR GENERAL




MED CARE HOME NFUSION - ‘HERAPY




                SEPTE~ER   1993
                      OFFICE      OF INSPECTOR           GENE~

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Servim, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

                         OFFICE       OF AUDIT        SERVICES

The OIGS Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contrac~ors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                         OFFICE       OF INVESTIGATIONS

The OIGS Office of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

              OFFICE      OF EVALUATION             AND     INSPECI’IONS

The OIGS Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department,
the Congress, and the public. The findings and recommendations contained in these inspection
reports generate rapid, accurate, and up-todate information on the efficiency, vulnerability,
and effectiveness of departmental programs.

This report was prepared in the New York Regional Office under the direction of Regional
Inspector General Thomas F. Tully and Deputy Regional Inspector General Alan S. Meyer.
Project Staff included:

New York                                                    Headquarters

Renee Dunn (Project Leader)                                 Cathaleen (Kitty) Ahern
Demetra Arapakos                                            W. Mark Krushat
Nancy Harrison                                              Linda Moscoe
                                                                  Health     Lare
DEP.\ RT.VESTOF HE.ALTH& HU.~ANSERvlCES                           F,nancr;      ~S~   r   S“’3’   C­



—— —..        ——. —                      —..    .

                                                                 Memorandum




 Office of Inspector General (OIG) Draft Report: Inappropriate   Payments for

 Total Parenteral Nutrition (TPN) (OEI-12-92-W4@)


 Bryan B. Mitchell

 Principal Deputy Inspector General



       We reviewed the above-referenced draft report which examined
 Medicare coverage of total parenteral nutrition (TPN), a “high tech” means of
 feeding patients who do not have a functioning intestinal tract.

       Our detailed comments on the report findings and recommendations are
 attached for your consideration. Thank you for the opportunity to review and
 comment on this draft report. Please advise us if you agree with our position
 at your earliest convenience.

 Attachment
      Comments of the Health Care Financing Administration (HCFAI
           on the Office of Ins~ector General [OIG\ Draft ReDort:
        Inamxomiate Pavments for Total Parenteral Nutrition (TPN)
                              [OEI-12-92-00460)


Recommendation     1

HCFA should instruct carriers to adhere to a strict interpretation   of the
coverage guidelines for TPN.

HCFA Resoonse

We concur. We will issue a notice to remind the parenteral and enteral
nutrition specialty carriers of the existing coverage guidelines (contained in
sections 2130, 3329, and 4450 of the Medicare Carriers Manual) concerning
this use of nutrition. We are particularly concerned about inappropriate
coverage of intra-dialytic parenteral nutrition ( IDPN), and will draw attention
to section 3329.5 of the Medicare Carriers Manual, which addresses renal
dialysis patients, in communication with the carriers.

Recommendation     2

HCFA should require the carriers to intensify review of certificates of medical
necessity, discuss therapeutic options with physicians, and monitor the use of
nutrients over time.

HCFA Resuonse

We concur with the intent of the recommendation.   We plan to share copies of
the final report with the Durable Medical Equipment Regional Carriers
(DMERCS) to make them aware of the potential problem areas identified.

The regionalization of the DMERCS is in the early phases of implementation.
During the process of developing region-wide medical policies and screens. the
DMERC Medical Directors will re-examine the clinical indications for TPN
and examine the appropriateness of providing parenteral nutrition to end-
stage renal disease (ESRD) patients. The DMERCS          will also be providing the

Statistical Analysis Durable Medical Equipment Regional Carrier with claims
history data, which will include certificates of medical necessity from which
statistically valid samples can be drawn to conduct comprehensive reviews.
This will provide more representative samples to serve as the bases for
examining trends and patterns of inappropriate TPN payments.
There are Medicaid coverage implications to TPN as well. Section l~2(a)(ss)
of the Social Security Act requires the State to establish a plan for the review,
by an appropriate health professional, of the appropriateness and quality of
care and semices furnished to recipients of medical assistance. States are
required to have procedures in place to review claims submitted by providers.
Problems detected during these reviews are brought to the attention of the
provider, We believe it would be valuable to alert State Medicaid Agency
directors to the TPN coverage issues discussed in this report so that they can
consider strengthening Medicaid safeguards as needed. When the report is
issued in final, we recommend that OIG send a copy to each State Medicaid
Agency director for this purpose.

Recommendation      3

HCFA should review research concerning the use of intra-dialytic parenteral
nutrition (IDPN) (parenteral nutrition given to a patient who is being
dialyzed).

HCFA ResDonse

We concur with the recommendation.      HCFA has asked the Agency for Health
Care Policy and Research’s Office of Health Technology Assessment (OHTA),
PHS, to do a technical review of IDPN for patients with a partially functioning
alimenta~ system. This includes a literature review, as well as contacting the
American Society for Parenteral Nutrition for its advice. We will be happy to
share the results of this review with OIG when they become available.

Recommendation      4

 If IDPN is considered reasonable and necessary for the treatment of a subset
 of ESR~D patients, it should be paid for on a per capita basis, with discounts
 negotiated by each facility or the networks, or by using some other method
 that takes into account the efficiencies associated with facility administration   of
 the nutrients.

 HCFA ResDo nse

 We defer comment on thk recommendation until the assessment by OHTA of
 IDPN is completed. Consideration will be given to the OIG’S recommendation
 at that time.
Page 3

Generalflechnical   Comments:

While OIG randomly sampled the standard 1 percent of the paid claims for
parenteral setices for 1991, this sampie amounted to only 58 claims. It is
difficult to assess whether the sample size was adequate for projecting an
overpayment of $71 million. It would be helpful to indicate in the
methodology section the confidence level achieved and the precision of the
projection at that confidence level.

While the review of claims data and the certificates of need often provide
excellent information for certain purposes, a medical record review would
enhance the value of the report’s analysis and findings.

On page 4, it is noted that all hyperalimenation (high- and low-tech feeding

methods) claims are processed by one of two carriers: Transamerica

Occidental Life Insurance Company in Los Angeles processes claims West of

the Mississippi, and Blue Cross/Blue Shield of South Carolina processes claims

in the East. The first table in appendix B, however, indicates that South

Carolina Blue Shield handled 83 percent of the patients included in the

sample, In order to avoid the impression that there is a problem with the

sample, it would be helpful on page 4 to indicate that the vast majority of

claims are processed by South Carolina Blue Shield.

